Rifkin Law Office
2855 Telegraph Avenue, Suite 517
Berkeley, CA 94705
www.rifkinlawoffice.com
Phone: (510) 414-4132
Email: lrifkin@rifkinlawoffice.com

May 29, 2020
Via First-Class Mail and Electronic Filing
Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street N.E.
Washington, DC 20543
RE:

Idaho Department of Correction, et al. v. Adree Edmo, No. 19-1280

Dear Mr. Harris:
I am counsel of record for respondent Adree Edmo. I write under Rule 30.4 to
respectfully request a 60-day extension of time in which to file an opposition to the petition
for a writ of certiorari on her behalf.
The petition was docketed on May 12, 2020, and the response is currently due on
June 11, 2020. A 60-day extension would move the response deadline to August 10,
2020. This additional time is necessary in order to permit new counsel, who have recently
joined respondent’s legal team, to familiarize themselves with the facts and record of the
case and to prepare the response. Based on the Court’s distribution schedule, this
extension would not affect the timing of when the Court considers the petition.
Thank you for considering this request.
Sincerely,

Lori Rifkin, Esq.
cc:

All counsel of record

